No.
KENNETH A. PRUITT,
Petitioner,
v.
JOSEPH ROBINETTE BIDEN JR., et al.,
Respondents.
AFFIDAVIT
On this 12th day of October, 2021,1, Anthony G. Lantagne, hereby certify
that this Petition for Writ of Certiorari was sent this same day via Federal Express
Overnight Delivery to the Supreme Court of the United States. I further certify
that I have served this same date the required copies via USPS First Class Mail
and email to the counsel of record listed below:
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Other parties served via First Class Mail:
Lee J. Lofthus
Assistant Attorney General for Administration
Justice Management Division
U.S. Department of Justice
Room 1111
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Nicholas Ganje
U.S. Attorney for the Eastern District of Texas
United States Attorney's Office,
Beaumont Office
350 Magnolia Ave., Suite 150
Beaumont, Texas 77701
U.S. Department of Justice
U.S. Attorney's Office
Civil Process Clerk
415 South 1st Street
Lufkin, TX 75901
Joseph R. Biden Jr.
in official capacity as President, at
The White House
1600 Pennsylvania Avenue, N.W.
Washington, DC 20500

John F. Kerry
in official capacity as Special Presidential Envoy for Climate, at
The White House
1600 Pennsylvania Avenue, N.W.
Washington, DC 20500
U.S. Department of Treasury Building
1500 Pennsylvania Avenue, NW,
Washington, D.C 20220
Janet L. Yellen,
Secretary of Treasury
in official capacity and/or 5 U.S. Code ยง 706 ultra vires, nominee
U.S. Department of Treasury Building
1500 Pennsylvania Avenue, NW,
Washington, D.C 20220
US Environmental Protection Agency (EPA)
1200 Pennsylvania Avenue NW,
Washington, DC 20004
Michael Regan,
Administrator of the Environmental Protection Agency
in official capacity and/or 5 U.S. Code ยง 706 ultra vires,
US Environmental Protection Agency
1200 Pennsylvania Avenue NW,
Washington, DC 20004
National Institute of Environmental Health Sciences (NIEHS)
111 TW Alexander Dr.
Durham, NC 27709
Richard Woychik
Director of National Institute of Environmental Health Sciences
in official capacity and/or 5 U.S. Code ยง 706 ultra vires,
National Institute of Environmental Health Sciences
111 TW Alexander Dr.
Durham, NC 27709
Andrea L. Parker
Assistant U.S. Attorney for the
Eastern District of Texas
United States Attorney's Office
350 Magnolia Ave., Suite 150
Beaumont, TX 77701

I declare under penalty of peijury that the foregoing is true and correct.
Executed on this 12th day of October, 2021.

La;
Lantagnfe-Hegal rfmting, Inc.
801 E. Main Street, Suite 100
Richmond, Virginia 23219
(804) 644-0477

COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

Anthony G. Lantagne appeared before me this 12th day of October, 2021, and
attested that the foregoing affidavit is true and exact to the best of his knowledge
and belief.

Keiona^R^d
.......

?.1

5

UJ

..... .

